No.
IN THE
SUPREME COURT OF THE UNITED STATES
JAMES TOLLE,
Petitioner;
vs.
GOVERNOR RALPH NORTHAM
AND THE COMMONWEALTH OF VIRGINIA,
Respondents.
James Tolle,

do swear or declare that on this date,
,
2020,
as
required
by Supreme Court Rule 291 have
Aa
served the
e^losed *P ETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days. The names and addresses of those served are as follows:
I,

Governor Northam
Office of the Governor
P. O. Box 1475
Richmond, YA 23218
Commonwealth of Virginia
do Governor Northam
Office of the Governor
R O. Box 1475
Richmond, VA 23218
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/H Qcy

I

_, 2020

By:
JamgyTolle
Pro Se
11171 Soldiers Court
Manassas, VA 20109
703-232-9970
jtmail0000@yahoo.com

